NO.
IN Tun
SUPREME COURT OF THE UNITED STATES

Octoenn TERwi, 202I

AInxaNIon P. BEBRTS,
Petitioner,
V.

Uxrrnn Srarps op AunnrcA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(D, I certify
that the petition for a writ of certiorari contains 7 ,429
words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d.

I

declare under penalty of perjury that the foregoing
is true and correct.

Dated this 12th day of October, 2021

Respectfully submitted,

GIMBEL, REILLY, GUERIN & BROWN LLP

JASON
Defendant'Appellant'
Counsel
Petitioner, Alexander P. Bebris
POST OFFICE ADDRESS

Two Plaza East, Suite 1170
330 East Kilbourn Avenue
Milwaukee, Wisconsin 53202
Telephone: 414127 L'L44O

